OIG Investigative Reports, Eight Individuals Indicted for Defrauding Temple University
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Philadelphia, PA June 20, 2002
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 451-5200
Contact: RICHARD MANIERI
Public Affairs Specialist
215-861-8525
Eight Individuals Indicted for Defrauding Temple University
United States Attorney Patrick L. Meehan today announced the filing of a 49-count indictment charging Grady McCrary, Brian Kornegay, Sean McCrary, Carlton McCrary, Jamillah Allen, Tasha Gordon, Shonda Feggins and Jane Doe, a/k/a Sonya Marshall, a/k/a Ramona Barber, with committing mail fraud and bank fraud and using false social security numbers to defraud, in violation of 18 U.S.C. §§ 371 and 1344, and 42 U.S.C. § 408(a)(7)(B).  In addition, the indictment charges Grady McCrary with making false statements to a bank in relation to receiving student loans under the name Barry Williams in 1997, and theft of student loan proceeds and grants in 1997 and 1998, in violation of 18 U.S.C. § 1014 and 20 U.S.C. § 1097(a).
According to the Indictment, from March 1996 through February 1998, the defendants passed tuition checks at Temple University, in Philadelphia, Pennsylvania, drawn on closed accounts, accounts with insufficient funds and accounts that did not exist, at various banks.  The defendants then sought and obtained refund checks from Temple University before Temple University knew that the tuition checks were fraudulent.  The defendants passed over $94,000 in fraudulent tuition checks at Temple, and received more than $76,000 in refund checks from Temple through this scheme.  In conducting this scheme, the defendants enrolled under their own names, as well as under false names with false social security numbers.  The indictment further charges that the defendants committed bank fraud when they passed the bad tuition checks at Temple University, as well as at DeVry Institute of Technology, in Decatur, Georgia, and University of Maryland, in College Park, Maryland, totaling approximately $115,000, from March 1996 through March 1998.
The indictment also charges Grady McCrary with fraudulently obtaining $22,775 in federally funded student loans and grants at Temple University and University of Maryland in 1997 and 1998.
NAME
ADDRESS
AGE OR DATE OF BIRTH
Grady McCrary
1059 Autumn Crest Court
Stone Mountain, Georgia
11/7/68
Brian Kornegay
1105 West 5th StreetWilmington, Delaware
11/28/68
Carlton McCrary
1059 Autumn Crest Court
Stone Mountain, Georgia
1/11/76
Sean McCrary
1059 Autumn Crest Court
Stone Mountain, Georgia
12/24/73
Jamillah Allen
7300 Elmwood Avenue2nd FloorPhiladelphia, Pennsylvania
3/19/74
Tasha Gordon
2 St. Louis Avenue
Egg Harbor, New Jersey
4/30/68
Shonda Feggins
1011 S. Frazier Street
Philadelphia, Pennsylvania
5/2/68
Jane Doe, a/k/a Sonya Mar­shall, a/k/a
Ramona Barber
Unknown
Unknown
If convicted, the defendants face the following maximum possible sentences:
Grady McCrary: 365 years imprisonment and a $15,250,000 fine.
Brian Kornegay: 165 years imprisonment and a $7,250,000 fine.
Sean McCrary: 120 years imprisonment and a $5,500,000 fine.
Carlton McCrary: 115 years imprisonment and a $5,250,000 fine.
Jamillah Allen: 120 years imprisonment and a $5,500,000 fine.
Tasha Gordon: 120 years imprisonment and a $5,500,000 fine.
Shonda Feggins: 115 years imprisonment and a $5,250,000 fine.
Jane Doe: 120 years imprisonment and a $5,500,000 fine.
The case was investigated by the Federal Bureau of Investigation, the United States Department of Education, Office of Inspector General, the Social Security Administration, Office of Inspector General, the Philadelphia Police Department, and the Temple University Police.  Prosecution has been assigned to Assistant United States Attorney Sarah L. Grieb.
COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
HTTP://WWW.USAO-EDPA.COM
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov